           Audit Report



 Special Disability Workload
Payments Made to Incarcerated
        Beneficiaries




    A-13-11-21188 | October 2013
MEMORANDUM


Date:      October 18, 2013                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)

           The attached final report presents the results of our audit. Our objective was to determine
           whether beneficiaries included in the Social Security Administration’s Special Disability
           Workload incorrectly received Disability Insurance benefits for periods when they were
           convicted of a criminal offense and confined in correctional institutions.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Special Disability Workload Payments Made to Incarcerated
Beneficiaries
A-13-11-21188
October 2013                                                                Office of Audit Report Summary

Objective                                  Our Findings

To determine whether beneficiaries         SSA issued improper DI benefit payments to beneficiaries for
included in the Social Security            periods they were in correctional institutions. Of the 100 sample
Administration’s (SSA) Special             cases we reviewed, SSA appropriately took action to suspend DI
Disability Workload (SDW)                  benefit payments for 75 beneficiaries who had periods of conviction
incorrectly received Disability            and incarceration, but overpaid DI benefits to the remaining
Insurance (DI) benefits for periods        25 sample beneficiaries. Based on this sample, we estimate SSA
when they were convicted of a              overpaid about $1 million to 440 beneficiaries.
criminal offense and confined in
correctional institutions.                 Our Recommendations

Background                                 We recommend that SSA:

Title II of the Social Security Act        1. Review the 25 beneficiaries who improperly received DI
(Act), as amended, requires that SSA          payments during periods of incarceration and collect any
provide DI benefits to individuals who        overpayments.
meet specific disability requirements.
Section 1611 (e)(2) of the Act requires    2. Take action it determines appropriate to review the accuracy of
that Supplemental Security Income             the DI payments made to the remaining 1,661 individuals in the
(SSI) recipients who have been                Agency’s SDW who have criminal history data in SSA’s
identified as likely to be eligible for       information systems.
Old-Age, Survivors and Disability
                                              SSA agreed with our recommendations.
Insurance (OASDI) benefits file for
those benefits. Studies SSA conducted
identified SSI recipients who had their
entitlement based on applications
before January 1, 2000, and appeared
to be insured for, but were not
receiving, DI benefits. The Agency
categorized these individuals as SDW
cases. Subject to certain conditions,
SSA suspends (a) OASDI payments to
beneficiaries convicted and confined to
correctional institutions for committing
a criminal offense and (b) SSI
payments to recipients who have been
confined in a public institution
throughout any month.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     DI Benefits Suspended for Periods of Conviction and Incarceration ........................................3
     DI Payments for Periods of Conviction and Incarceration ........................................................4
     DI Beneficiaries with SSI Suspensions Due to Incarceration ....................................................7
Conclusions ....................................................................................................................................10
Recommendations ..........................................................................................................................10
Agency Comments .........................................................................................................................11
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Sampling Methodology And Results .................................................................. B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)
ABBREVIATIONS
Act                  Social Security Act

C.F.R.               Code of Federal Regulations

DI                   Disability Insurance

LAF                  Ledger Account File

MBR                  Master Beneficiary Record

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

OQP                  Office of Quality Performance

PHUS                 Payment History Update System

POMS                 Program Operations Manual System

PUPS                 Prisoner Update Processing System

SDW                  Special Disability Workload

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSR                  Supplemental Security Record

U.S.C.               United States Code




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)
OBJECTIVE
Our objective was to determine whether beneficiaries included in the Social Security
Administration’s (SSA) Special Disability Workload (SDW) incorrectly received Disability
Insurance (DI) benefits for periods when they were convicted of a criminal offense and confined
in correctional institutions.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) and Supplemental
Security Income (SSI) programs under titles II and XVI of the Social Security Act (Act),
respectively. Title II of the Act, as amended, requires that SSA provide DI benefits to
individuals who meet specific disability requirements. 1 The SSI program provides payments to
individuals who have limited income and resources and who are either age 65 or older, blind, or
disabled. 2

Section 1611 (e)(2) of the Act requires that SSI recipients who have been identified as likely to
be eligible for OASDI benefits file for those benefits. Studies SSA conducted identified SSI
recipients who had their entitlement based on applications before January 1, 2000, and appeared
to be insured for, but were not receiving, DI benefits. The Agency categorized these individuals
as SDW cases. As of September 30, 2010, SSA reported a total estimated SDW liability of
$173 million due the public. 3 SSA reported its formal project of identifying and reviewing SDW
cases completed on March 27, 2011.

In February 2008, SSA’s Office of Quality Performance (OQP) reported, “Processing of SDW
cases has proven to be very complex and time-consuming. The Office of Quality Performance
was asked to develop a comprehensive review to monitor and report on adjudicative quality.” As
part of its approach, OQP reviewed a sample of post-adjudication cases. OQP found incorrect
suspension, termination, and deductions as the second highest dollar value error resulting in
“. . . 18.46 percent of all incorrect payments.” Furthermore, OQP reported, “The majority of the
errors cited were O/P [overpayments] and were attributed to the failure to suspend benefits for
periods where the beneficiary was found to be incarcerated and ineligible for payment.”

The Act generally prohibits OASDI benefits to individuals confined to a jail, prison, or certain
other public institution for committing a crime. 4 Subject to certain conditions, SSA suspends
OASDI payments to beneficiaries while they are “. . . confined in a jail, prison, or other penal




1
    Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
    Social Security Act § 1601, et seq., 42 U.S.C. §1381, et seq. See also 20 C.F.R. § 416.110.
3
    SSA’s FY 2010 Performance and Accountability Report, p. 116.
4
    Social Security Act § 223j, et seq., 42 U.S.C. § 423, et seq.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)            1
institution or correctional facility pursuant to his conviction of a criminal offense.” 5 SSA also
suspends SSI payments to recipients confined to a public institution throughout any month. 6

SSA provided information for all SDW cases for which the Agency had completed its review as
of October 2010. We used this information to extract certain data from SSA’s Master
Beneficiary Record (MBR), Payment History Update System, and Prisoner Update Processing
System (PUPS). Using the extracted data, we identified beneficiaries who (1) received DI
payments as the result of the Agency’s SDW review and (2) had prison data recorded in PUPS
within the last 10 years. 7 We applied further screening criteria, including the availability of
conviction and confinement data, in PUPS. We identified 1,761 beneficiaries who met these
screening criteria as of December 2011.

From the 1,761, we randomly selected and reviewed a sample of 100 beneficiaries to determine
whether SSA paid DI benefits for periods when they were convicted and confined in correctional
institutions. We reviewed information recorded in SSA’s automated systems as of July and
October 2012, respectively. Specifically, we reviewed prison information recorded in PUPS, and
prisoner suspensions recorded on MBRs and Supplemental Security Records (SSR) applicable to
the period before issuance of SDW-related DI payments. 8 See Appendix A for our scope and
methodology, and Appendix B for our sampling methodology and results.

RESULTS OF REVIEW
Beneficiaries included in the Agency’s SDW received improper DI benefits for periods they
were convicted of criminal offenses and confined in correctional institutions. Of the 100 sample
cases we reviewed, SSA suspended DI benefits for 75 beneficiaries who had periods of
conviction and incarceration. Some of these beneficiaries also had SSI payments properly
suspended for periods of incarceration. However, for the remaining 25 beneficiaries, SSA
overpaid DI benefits for periods when they were convicted and confined in correctional
institutions 9 (see Figure 1).




5
 Social Security Act § 202(x)(1)(A)(i), 42 U.S.C. § 402 (x)(1)(A)(i). SSA, Program Operations Manual System
(POMS), GN 02607.001.A, Title II Prisoner and Other Inmate Suspension Provisions.
6
    Social Security Act § 1611(e)(1)(A), et seq., 42 U.S.C. § 1382(e)(1)(A), et seq.
7
 We extracted data from PUPS based on the completion date of SDW cases. A completion date is the date SSA
completed its review of an SDW case and determined the SSI recipient had been eligible to receive DI payments.
Data extracted from PUPS covered the 10-year period before the date for each SDW case we reviewed.
8
    According to SSA staff, in some instances, PUPS would not be updated at the time of SSA’s adjudicative action.
9
  During our review, we did not identify any individuals who were convicted and found not guilty by reason of
insanity, guilty but insane, incompetent to stand trial, or had a similar findings based on similar factors, such as
mental disease or incompetence.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                                2
                 Figure 1: Results for 100 SDW Cases with Incarceration Data




                      25
                                                                    DI Benefits Appropriately
                                                                    Suspended

                                                                    DI Payments Improperly Made
                                                                    for Periods of Conviction and
                                                                    Incarceration
                                        75




SSA did not adjust approximately $58,037 in DI payments made to 25 beneficiaries when they
were ineligible for benefits. Beneficiaries were not eligible for payments because they were
confined to a jail or prison for being convicted of a criminal offense. Of the 25 beneficiaries,
18 had periods of conviction and incarceration that made them ineligible for the $49,895 in DI
payments they received. The remaining seven beneficiaries were not eligible for SSI payments
or DI benefits because convictions for criminal offenses applied to periods that SSA had
suspended SSI payments. SSA made $8,142 in improper DI payments for periods when SSA
suspended SSI payments, and these beneficiaries were also convicted of criminal offenses. Of
the 25 beneficiaries, 1 had 2 separate convictions and incarceration periods during the SDW
eligibility period.

We estimate SSA overpaid about $879,000 in DI benefits to about 317 beneficiaries who had
periods of conviction and incarceration and about $143,000 in DI benefits to 123 beneficiaries
for periods when SSI payments were suspended.

DI Benefits Suspended for Periods of Conviction and Incarceration
Most beneficiaries we reviewed had DI benefits suspended, as appropriate, for applicable periods
of conviction and incarceration. The Agency adhered to its policies and procedures by
appropriately suspending DI benefits when a Federal, State, or local government correctional
institution confined individuals for committing criminal offenses. Of the 100 beneficiaries
reviewed, SSA properly suspended DI payments for 75 beneficiaries for such periods.
Information recorded in SSA’s systems indicated periods of conviction and confinement for
these beneficiaries.


Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)             3
DI Payments for Periods of Conviction and Incarceration
Of the 100 beneficiaries in our review, 18 had periods of conviction and incarceration applicable
to the period before issuance of SDW-related DI payments. For the 18 beneficiaries, we
identified 19 periods where SSA did not adjust DI payments for their convictions and
incarcerations.

We reviewed data recorded in SSA’s PUPS, MBR, and SSR and found Agency staff did not
always adjust SDW-related DI payments for conviction and incarceration periods. Based on our
review of information in SSA’s systems, these beneficiaries were convicted and incarcerated for
a (1) period of more than 30 days in a jail, prison, or penal or correctional facility or (2) crime
punishable by imprisonment for longer than 1 year. Generally, SSA policy prohibits paying DI
benefits to individuals under such conditions. 10

In January 2013, we contacted SSA’s Office of the Deputy Commissioner for Operations, Office
of Public Service and Operations Support, to discuss the beneficiaries we identified who may
have been improperly paid DI benefits. SSA staff indicated the Agency will not confirm the DI
overpayments we identified until it receives our audit report. Below are examples of DI
payments not adjusted for periods of conviction and incarceration.

•      Sample Case #99: From February 2009 to November 2010, SSA paid $22,056 in DI benefits
       to a beneficiary in Staten Island, New York, for the period he was incarcerated in a
       correctional institution. Information in PUPS indicated a conviction date of
       February 13, 2009; and information obtained from the Federal Bureau of Prisons Website
       indicated a release date of November 9, 2010. This would make the beneficiary ineligible to
       receive DI benefits during this period.

•      Sample Case #56: From March 2008 to January 2009, SSA paid $4,975 in DI benefits to a
       beneficiary in Kingsport, Tennessee, for the period he was incarcerated in a correctional
       institution. Information in PUPS indicated a conviction date of September 18, 2007 and a
       release date of February 3, 2008. SSA suspended benefits for this period of incarceration.
       However, Agency staff noted in PUPS that prison officials modified the release date to
       January 2009. The beneficiary was ineligible to receive DI benefits during this period, but
       SSA did not adjust his payments.

•      Sample Case #66: From August 2000 to September 2001, SSA paid $2,935 in DI benefits to
       a beneficiary in Dallas, Texas, for the period he was incarcerated in a Texas Department of
       Criminal Justice correctional institution. Information in PUPS indicated a conviction date of
       August 3, 2000 and no release date. However, according to the Modernized Supplemental
       Security Income Claims System, the prison released the beneficiary in September 2001.
       Therefore, the beneficiary was ineligible to receive DI benefits during this period.



10
     SSA, POMS, GN 02607.025 Title II Prisoner Suspensions Provisions.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)              4
In May 2013, after verifying certain conviction and incarceration data, we discussed the results
of our work with SSA staff. Staff told us the data in PUPS is not always accurate. Staff
explained that before SSA suspends benefits, it contacts officials in the Departments of
Corrections, county, and/or local jails to verify beneficiaries’ conviction and confinement
periods. For those records where SSA had not verified PUPS data, we subsequently contacted
the respective correctional institutions and verified conviction dates and incarceration periods.
Based on our calculation, SSA overpaid $49,895 11 in DI benefits to the 18 beneficiaries. Of the
18 beneficiaries, 16 were in current pay status as of April 10, 2013, 1 had benefits suspended,
and 1 was deceased. SSA records payment status information as ledger account file data in its
information systems (see Table 1). 12




11
  These overpaid amounts are based on our understanding of applicable Agency policies and computation of benefit
payments. The payments included retroactive and current DI benefits. We calculated the overpayments by using
the monthly benefit payment received by the beneficiary during the period of incarceration multiplied by the number
of months beneficiaries were in the correctional institution. The estimated overpayments do not consider other over-
or underpayments that may apply. As such, these amounts are estimates and are subject to change.
12
  Ledger Account File (LAF) codes indicate the payment status of the DI beneficiary. SSA, POMS SM 00550.020
(effective May 15, 2009) defines LAF code “C” as a beneficiary in insured current payment status, receiving
monthly benefits; LAF code “S7” as a prisoner suspension; suspension due to extended trail work period, or
suspension for refusing vocational rehabilitation services; LAF code“S9” as miscellaneous suspension; and LAF
code “T1” as terminated because of death of the beneficiary. This reflects LAF code information as of
April 10, 2013.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                           5
      Table 1: DI Overpayments for Periods of Beneficiaries’ Conviction and Incarceration
                                      SDW                                            Number of
                                    Retroactive                                      Months DI
      Sample                          Check                                           Benefits
       Case              LAF         Release           Incarcerated        Date of   Improperly          Amount
      Number             Code         Date 13             Period          Conviction    Paid             Overpaid
             1            C           03/2005         5/2000 – 7/2000      5/13/2000             2          $634
             5            C           06/2005         1/2004 – 9/2004       1/16/2004            7         $1,136
            10            S9          02/2005         6/2001 – 5/2002      6/15/2001            11         $3,620
            10            S9          02/2005         7/2003 – 9/2003       7/24/2003            1          $342
            24            C           04/2007         5/2000 – 4/2001      5/23/2000            11         $5,115
            44            C           11/2008         4/2004 – 6/2004        4/6/2004            2          $637
            45            C           06/2007         6/2002 – 9/2002      6/27/2002             3          $732
            47            C           03/2004         6/2003 – 8/2003       6/13/2003            2          $604
            54            C           10/2009         3/2001 – 8/2001       5/4/2000             5         $1,231
           56 14          C           07/2008         3/2008 – 1/2009       5/27/2007           10         $4,975
            58            C           04/2006         4/2004 – 6/2004      4/29/2004             1          $336
            66            C           09/2007         8/2000 – 9/2001        8/3/2000           13         $2,935
            70            C           11/2006        11/2001 – 4/2002      11/5/2001             5         $2,232
            71            C           11/2005         7/2002 – 9/2002       6/26/2002            2         $1,120
            72            C           06/2008        7/2001 – 11/2001      7/17/2001             3          $815
            86            T1          06/2008         3/2003 – 5/2003        3/7/2003            1          $278
            97            C           11/2004        9/2001 – 12/2001       9/5/2001             3          $861
            98            C           06/2009        12/2004 – 1/2005      12/14/2004            1          $236
           99 15          C           09/2009        2/2009 – 11/2010       2/13/2009           20        $22,056
                                                    Total                                                 $49,895
     Note:         Sample case 10 denotes a beneficiary whose information recorded in SSA’s systems indicated two
                   separate periods of conviction and incarceration. Sample case 86 is deceased.

Since SSA staff had not confirmed the 19 cases, the DI overpayments we identified may be
modified. Based on our analysis, we estimate SSA overpaid about $879,000 in DI benefits to
about 317 beneficiaries.




13
     The date SSA paid retroactive DI benefits.
14
     The incarceration period extended beyond the SDW payment period.
15
     Id.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                             6
We also identified DI overpayments that occurred after our audit period. Specifically, we
identified two beneficiaries with convictions and incarceration periods that occurred after the
issuance of the SDW-related DI payments. The overpayments for these two beneficiaries totaled
about $1,014. 16

DI Beneficiaries with SSI Suspensions Due to Incarceration
We found seven beneficiaries had convictions for criminal offenses applicable to periods SSI
payments were suspended. Beneficiaries had their SSI payments suspended for periods of
incarceration. Information in SSA’s systems indicated the suspensions occurred because of
confinement 17 in public institutions. That is, SSA suspended their SSI payments because of
confinement in correctional institutions for a full month or longer. Since the convictions were
applicable to these incarceration periods, the beneficiaries were not eligible for SSI payments or
DI benefits during these periods.

Of the 100 beneficiaries in our review, we originally found 27 were paid DI payments for
periods the Agency suspended SSI payments. Information in SSA’s systems indicated the
Agency suspended SSI payments because these individuals (1) were inmates of penal institutions
(Coding Event N22); (2) fled to avoid prosecution or custody/confinement after conviction for a
felony (Coding Event N25); or (3) violated a condition of probation or parole imposed under
Federal or State law (Coding Event N25). 18 For these periods of incarceration, SSA paid
$77,269 in DI payments.

SSA instructs its employees that, although eligibility to OASDI benefit payments are not directly
related to SSI eligibility, the SSR should be reviewed for pay statuses that may affect OASDI
eligibility. 19 Specifically, when determining benefit payments, employees must consider periods
of “SSI suspense” that may affect OASDI benefits due. SSR payment status coding events—
such as “N22 and N25”—should be reviewed for possible suspension of OASDI benefits. For
the SSI payment suspension periods identified, we found no data to indicate SSA determined
whether there were convictions for criminal offenses applicable to periods SSI payments were
suspended. When such occurs, it affects DI eligibility. Examples of information we found
regarding DI payments made for periods SSI payments were suspended follow.


16
  One beneficiary had a conviction date of September 11, 2011 and an incarceration period of September through
November 2011. The other beneficiary had a conviction date of September 23, 2011 and an incarceration period of
September through October 2011.
17
  SSA, POMS, SI 02310.070 A.2 (effective May 23, 2001) states an individual is confined when he/she is a resident
of a public correctional institution; physically resides in the institution; and receives, or can receive, substantially all
his/her food and shelter, and any or all other services the institution makes available.
18
  SSA, POMS, SM 10802.130 Description of Payment Status Codes (SSR). Regarding fleeing felons and parole
and probation violators, see litigation developments reflected in POMS, GN 02613 and GN 02615 implementing
nationwide class action court orders to provide relief to class members who were not paid OASDI or SSI based on
felony warrant or a parole or probation violation warrant.
19
     Special Disability Workload Processing Guide, December 2009.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                                   7
•   Sample Case #8: From May to December 2002, SSA paid $2,540 in DI benefits to a
    claimant in Binghamton, New York. However, the claimant’s SSI payments were suspended
    for the same period. The coding in SSA’s records indicated the suspension occurred because
    the claimant was an inmate of either a public or a penal institution. Therefore, the claimant
    was not entitled to SSI payments. SSI payments were suspended.

•   Sample Case #18: From November 2000 to May 2001, SSA paid $2,107 in DI benefits to a
    claimant in Richmond, Virginia. However, the claimant’s SSI payments were suspended for
    the same period. SSA’s coding indicated SSI payments were suspended because the claimant
    was an inmate at either a public or penal institution.

We contacted the Office of Public Service and Operations Support to confirm whether the DI
payments made during periods of SSI suspensions complied with Agency policies. SSA staff
advised us the Agency would not review the cases until it receives our audit report.

We subsequently identified conviction data for some of the 27 beneficiaries who received DI
benefits for periods SSI payments were suspended. For those identified, we followed Agency
practice and verified conviction data and incarceration periods. In June 2013, we confirmed 7 of
the 27 beneficiaries were convicted of criminal offenses, and those convictions applied to the
periods their respective SSI payments were suspended. During these periods, the
seven beneficiaries were convicted and incarcerated for more than 30 days in a jail, prison, or
penal or correctional facility. SSA overpaid these individuals $8,142 in DI benefits. As of
April 10, 2013, six beneficiaries were in current pay status (see Table 2).




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)         8
                         Table 2: DI Overpayments for Periods of SSI Suspense
                          SDW                                                                          DI Benefits
                        Retroactive                                                  Number of          Paid For
Sample         LAF        Check                                                      Months DI         Period SSI
 Case          Code      Release          Incarcerated           Date of              Benefits          Payments
Number           20
                          Date 21            Period             Conviction        Improperly Paid 22   Suspended
       3         S6        12/2008      4/2008 – 6/2008         1/27/2004                 2                $666
       8         C         8/2004       5/2002 – 12/2002          5/6/2002                7               $2,540
      15         C         5/2005       3/2003 – 9/2003          3/10/2003                5                $805
      18         C         6/2009       11/2000 – 5/2001        11/17/2000                6               $2,107
      22         C         5/2007       3/2006 – 5/2006          3/27/2006                2                $717
      32         C         2/2004        2/2002 – 8/2002         2/11/2002                5                $715
      68         C         4/2005       6/2000 – 7/2000          6/14/2000                1                $592
                                                 Total                                                    $8,142

SSA informed us its staff would review our application of SSA policy and confirm our
overpayment calculations; therefore, the overpayments we identified are subject to change.
Based on the results of our review, we estimate SSA overpaid about $143,000 in DI benefits to
123 individuals.

Furthermore, we identified DI overpayments that began after the issuance of the SDW-related DI
payments. We confirmed these three individuals were convicted of four criminal offenses, and
those convictions applied to the periods their respective SSI payments were suspended. 23 These
cases totaled about $9,800 (see Table 3).




20
  See Footnote 12. Also LAF code “S6” is defined as suspension during development of a better (correct) address
for mail or direct deposit, as appropriate.
21
     See Footnote 13.
22
  Each period is defined as an instance when an individual had SSI payments suspended due to confinement in a
public institution. However, each instance could extend beyond a 1-month period.
23
     Of the three individuals, two were also improperly paid during our audit period.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                            9
     Table 3: DI Overpayments for Periods of SSI Suspense After the Insurance of the SDW-
                             Related Retroactive DI Payments

                          SDW                                                     Number of          DI Benefits
                        Retroactive                                               Months DI           Paid For
Sample         LAF        Check                                                    Benefits          Period SSI
 Case          Code      Release         Incarcerated          Date of            Improperly          Payments
Number           24
                          Date 25           Period            Conviction            Paid 26          Suspended
       3        S6       12/2008       5/2011 – 1/2012         5/6/2011                8                 $2,820
      52        C        4/2008        4/2009 – 10/2009        4/23/2009               5                 $1,604
      68        C        4/2005         5/2005 – 9/2005        5/11/2005               4                 $2,674
      68        C        4/2005         5/2006 – 9/2006         5/5/2006               4                 $2,782
                                               Total                                                     $9,880
Note:      Sample case 68 denotes a beneficiary whose information recorded in SSA’s systems indicated his SSI
           payments were suspended for two separate periods of incarceration. Sample cases 3 and 68 were
           previously identified as beneficiaries who had SSI payments suspended due to conviction and confinement
           during the SDW period (see Table 2).


CONCLUSIONS
SSA made improper DI payments to the beneficiaries we reviewed while they were in
correctional institutions. Of the 100 beneficiaries reviewed, the Agency took action on
75 beneficiaries to suspend DI benefits for periods in correctional institutions. However, for the
remaining 25 beneficiaries, SSA did not adjust DI benefits for periods of conviction and
incarceration. We estimate SSA overpaid about $1 million to 440 beneficiaries with periods of
conviction and incarceration.

RECOMMENDATIONS
We recommend that SSA:

1. Review the 25 beneficiaries who improperly received DI payments during periods of
   incarceration and collect any overpayments.

2. Take action it determines appropriate to review the accuracy of the DI payments made to the
   remaining 1,661 individuals in the Agency’s SDW who have criminal history data in SSA’s
   information systems.




24
     See Footnote 20.
25
     See Footnote 21.
26
     See Footnote 22.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                           10
AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix C for the full text of the Agency’s
comments.




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)   11
                                        APPENDICES




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objectives, we:

•      Reviewed applicable sections of the Social Security Act and the Social Security
       Administration’s (SSA) regulations, policies, and procedures related to prisoner benefit and
       payment suspension.

•      Identified and reviewed prior Office of the Inspector General and Government
       Accountability Office reports pertaining to prisoner benefit and payment suspensions.

•      Received from SSA all Special Disability Workload (SDW) cases completed as of
       October 22, 2010.

•      Examined information from an electronic data extract of the Agency’s Master Beneficiary
       Record (MBR), Payment History Update System (PHUS), and Prisoner Update Processing
       System (PUPS).

        Used SDW completed cases 1 as of October 22, 2010 to obtain an electronic data extract
         of beneficiaries who met the following screening requirements on March 10, 2011:
         (1) received Disability Insurance (DI) payments 2 as a result of the Agency’s SDW review
         and (2) had prison data recorded in PUPS within the last 10 years. Data recorded in the
         MBR, PHUS, and PUPS were extracted for these beneficiaries.

        Excluded those beneficiaries (1) with DI monthly payments of less than $1.00;
         (2) identified as auxiliary beneficiaries; and/or (3) with confinement dates beyond the
         SDW completion date. 3 In addition, we excluded deceased beneficiaries, beneficiaries
         with no confinement date, and beneficiaries with an inmate status code of “C,” “D,” “J,”
         or blank. 4 A total of 1,761 beneficiaries met our screening criteria.



1
 We based the extracted data from the MBR, PHUS and PUPS on the completion date for allowed cases.
Completion date is the date SSA completed its review and determined whether the one-time Supplemental Security
Income (SSI) recipient had been eligible to receive DI payments.
2
    The payments included retroactive and current DI benefits.
3
 A completion date is the date SSA completed its review of an SDW case and determined the SSI recipient had
been eligible to receive DI payments. Data extracted from PUPS covered the 10-year period before to the
completion date for each SDW case we reviewed.
4
  SSA, POMS, GN 02607.975 B.1 and B.2 (effective June 23, 2006) states inmate status codes of “C” and “D” as
confined, but not convicted and “J” as confined juvenile not tried as an adult for his crime. Subject to certain
conditions, SSA suspends Old-Age, Survivors and Disability Insurance payments to beneficiaries: (a) confined to
correctional institutions because they committed a criminal offense or (b) confined to mental institutions because of
being found not guilty of a criminal offense because of insanity or other mental condition. As such, we excluded all
beneficiaries confined but not convicted of committing a crime as they did not meet the criteria for ineligibility and
juveniles not tried as an adult and under age 18.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                           A-1
•   Selected from these 1,761 cases, a sample of 100 beneficiaries for detailed review. For each
    sampled case, we

     Reviewed the MBR, PUPS,5 and PHUS to determine whether overpayments may have
      occurred due to individuals being confined to a jail, prison, or certain other public
      institutions for committing a crime.

     Reviewed LexisNexis and other third-party correctional websites6 to obtain missing
      release dates.

     Reviewed the Modernized Supplemental Security Income Claims System to identify
      prison release dates.

     Reviewed the Supplemental Security Record to identify periods when benefits were
      suspended due to incarceration that may affect DI benefit eligibility.

     Calculated the estimated amount of DI overpayments due to the beneficiary’s period of
      incarceration.

•   Contacted Departments of Corrections, county and/or local jails in Arizona, California,
    Connecticut, Florida, Georgia, Illinois, Kentucky, Louisiana, Maryland, Michigan,
    Minnesota, Missouri, Nebraska, New Jersey, New York, North Carolina, Ohio, Oregon,
    Pennsylvania, Tennessee, Texas, and Washington, D.C., to determine whether incarcerated
    beneficiaries were confined and convicted during periods of SSI benefit suspension.

We determined the computer-processed data used for this audit were sufficiently reliable for
their intended use. Further, any data limitations were minor in the context of this assignment,
and the use of the data should not lead to an incorrect or unintentional conclusion. The
electronic data used in our audit was extracted from SSA’s MBR, PHUS, and PUPS systems.

The entity audited was the Office of the Deputy Commissioner for Operations. We conducted
our review in Baltimore, Maryland, from May 2012 to June 2013. We conducted this
performance audit in accordance with generally accepted auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




5
 For each sample case, we reviewed the prison history from the DI date of entitlement to the reported prison release
date as of July 2012.
6
  SSA, POMS, GN 02607.680 D.2 (effective September 2, 2011) provides instructions to use third-party sources to
locate missing inmate information.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                          A-2
Appendix B – SAMPLING METHODOLOGY AND RESULTS
Based on certain screening criteria (see Appendix A), we identified 1,761 Disability Insurance
(DI) beneficiaries from the Social Security Administration’s (SSA) Special Disability Workload
(SDW) completed cases 1 as of October 22 2010. Of these 1,761, we selected and reviewed a
random sample of 100 beneficiaries. For the 100 beneficiaries sampled, we reviewed prison
information from the Prisoner Update Processing System and prisoner suspensions from the
Master Beneficiary Record and the Supplemental Security Record. All actual and estimated
payments include retroactive and current DI benefits.

                               Table B–1: Population and Sample Size
                                  Population Size                   1,761
                                  Sample Size                         100

Based on a sample of 100 beneficiaries, we found SSA improperly paid about $49,895 in DI
benefits to 18 beneficiaries. Projecting these results to the population, we estimate improper
payments of approximately $879,000 to about 317 beneficiaries. The following tables provide
the details of our sample results, statistical projections, and estimates.

    Table B–2: Beneficiaries Receiving DI Overpayments for Periods Beneficiaries Were
                               Convicted and Incarcerated
               Number of Beneficiaries Who Received DI
               Overpayments for Periods They Were Convicted and
               Incarcerated                                                             18
               Point Estimate                                                          317
               Projection Lower Limit                                                  214
               Projection Upper Limit                                                  445
               Note: All projections are at the 90-percent confidence level.




1
 A completion date is the date SSA completed its review of an SDW case and determined the Supplemental
Security Income (SSI) recipient had been eligible to receive DI payments. Data extracted from PUPS covered the
10-year period before the completion date for each SDW case we reviewed.



Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)                      B-1
     Table B–3: Amount of DI Payments Not Adjusted for Periods Beneficiaries Were
                             Convicted and Incarcerated
              Amount of DI Overpayments for Periods
              Beneficiaries Were Convicted and Incarcerated                         $49,895
              Point Estimate                                                      $878,651
              Projection Lower Limit                                               $209,811
              Projection Upper Limit                                             $1,547,491
              Note: All projections are at the 90-percent confidence level.

We also found $8,142 in DI payments made to seven beneficiaries for periods beneficiaries were
not eligible for SSI payments or DI benefits. Convictions for criminal offenses were applicable
to periods SSI payments were suspended and the beneficiaries were convicted and incarcerated.
Projecting these results to the population, we estimate improper payments of approximately
$143,000 to about 123 beneficiaries. The following tables provide the details of our sample
results, statistical projections, and estimates.

        Table B–4: Beneficiaries Receiving DI Payments for Periods of SSI Suspense
               Number of DI Beneficiaries with SSI Prisoner
               Suspensions                                                           7
               Point Estimate                                                      123
               Projection Lower Limit                                               61
               Projection Upper Limit                                              221
               Note: All projections are at the 90-perent confidence level.

               Table B–5: Amount of DI Payments for Periods of SSI Suspense
                Amount of DI Payments for Periods of SSI
                Suspense                                                         $8,142
                Point Estimate                                                 $143,381
                Projection Lower Limit                                          $41,690
                Projection Upper Limit                                         $245,071
                Note: All projections are at the 90-perent confidence level.




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)       B-2
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      August 28, 2013                                                                Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Special Disability Workload Payments Made to
           Incarcerated Beneficiaries” (A-13-11-21188)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)            C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SPECIAL DISABILITY WORKLOAD PAYMENTS MADE TO INCARCERATED
BENEFICIARIES” (A-13-11-21188)


Recommendation 1

Review the 25 beneficiaries who may have improperly received Disability Insurance (DI)
payments during periods of incarceration and collect any overpayments.

Response

We agree with the recommendation and the savings cited. We expect to complete these reviews
before the end of calendar year 2013.

Recommendation 2

Take action it determines appropriate to review the accuracy of the DI payments made to the
remaining 1,661 individuals in the Agency’s Special Disability Workload (SDW) who have
criminal history data in SSA’s information systems.

Response

We agree with the recommendation and savings cited. We expect to complete these reviews
before the end of fiscal year 2014.




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)       C-2
Appendix D – MAJOR CONTRIBUTORS
Shirley E. Todd, Director, Evaluation Division

Florence Wolford, Audit Manager

Tracey Edwards, Senior Auditor

William Kearns, IT Specialist, Technical Services Division




Special Disability Workload Payments Made to Incarcerated Beneficiaries (A-13-11-21188)   D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
